<html>
<title> - THE CASTRO REGIME'S ONGOING VIOLATIONS OF CIVIL AND POLITICAL RIGHTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  THE CASTRO REGIME'S ONGOING VIOLATIONS OF CIVIL AND POLITICAL RIGHTS

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

                           Serial No. 114-219

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ____________
                               
                               
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
20-745PDF                         WASHINGTON : 2016                           
______________________________________________________________________________________                                                            
                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Oscar Elias Biscet, M.D., president, Lawton Foundation for Human 
  Rights (former Cuban political prisoner).......................     5
Ms. Sirley Avila Leon, democracy advocate........................     8
Ms. Maria Werlau, president, Free Society Project................    12
Mr. Geoff Thale, program director, Washington Office on Latin 
  America........................................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Oscar Elias Biscet, M.D.: Prepared statement.....................     7
Ms. Sirley Avila Leon: Prepared statement........................    10
Ms. Maria Werlau: Prepared statement.............................    15
Mr. Geoff Thale: Prepared statement..............................    24

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: List of political prisoners in Cuba.............    44
Written responses from Mr. Geoff Thale to questions submitted for 
  the record by the Honorable Christopher H. Smith...............    46

 
                      THE CASTRO REGIME'S ONGOING
                   VIOLATIONS OF CIVIL AND POLITICAL
                                 RIGHTS

                              ----------                              


                         TUESDAY, JULY 13, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And first 
let me begin by apologizing for the delay. There were a large 
series of votes in the House which precluded our meeting at the 
appointed time, so I do thank you for your forbearance.
    Good afternoon. It has been 1 year and 8 months since 
President Obama announced a major change in our country's 
policy toward Cuba. It has been 11 months since Secretary Kerry 
visited Havana and reopened our Embassy, and it has been nearly 
4 months since our President visited Cuba. Clearly, a lot has 
changed in just over 1\1/2\ years but for the people of Cuba, 
particularly those espousing fundamental human rights, what has 
changed?
    Today we will examine the sorry state of the civil and 
political rights in the Castro brothers' Cuba, and how despite 
all the promises by the administration and that an opening to 
Cuba would lead to greater opening domestically for the Cuban 
people, we still see political repression, including it must be 
noted repression directed at the Afro-Cuban population. And in 
the past, this subcommittee has had a previous hearing where we 
focused in great part on that terrible repression.
    This is not the first time this subcommittee has expressed 
concern about the lack of openness to democracy and the 
mistreatment of dissenters in Cuba. In fact, one of our 
witnesses, the courageous Dr. Oscar Biscet, offered dramatic 
testimony before this subcommittee in February 2012 when he 
testified via telephone from the U.S. Interests Section in 
Havana after evading the Cuban police to get there.
    Likewise, on February 5, 2015, we held a hearing entitled 
``Human Rights in Cuba: An Opportunity Squandered,'' wherein we 
asked whether the Obama administration had used the 
considerable leverage that it wields to better the condition of 
the Cuban people, or whether it was squandering the 
opportunity.
    Since then our fear that the administration has not been 
pushing sufficiently for the release of political prisoners and 
other human rights concerns has only grown with the focus on 
President Obama's legacy instead of on the Cuban people.
    For example, when President Obama made his visit to Cuba, 
he and Raul Castro appeared in a photo opportunity press 
conference. CNN's Jim Acosta, much to his credit, asked the 
hard question about Cuba's political prisoners. Raul Castro, 
much to his discredit, denied that there were any political 
prisoners in Cuba. ``Give me the list of the political 
prisoners and I will release them immediately,'' Castro 
taunted. ``Just mention the list,'' he said. President Obama 
did not present him with a list.
    Well, Mr. President, I have the list right here of 50 
political prisoners compiled by our good friend and colleague, 
Ileana Ros-Lehtinen, and without objection we'll insert that 
list into the record and we will send it to the Embassy here in 
Washington for Cuba. And, hopefully, it will be then sent down 
to Raul Castro. This is the list that President Obama should 
have had in his breast pocket ready to pull out when Raul 
Castro dared him to call his bluff.
    When I came to Congress in 1981 with Ronald Reagan, in the 
days of the old Soviet Union, one of the first issues I worked 
on was the plight of Soviet Jews and refuseniks who were 
imprisoned or not allowed to leave the Soviet Union. I recall 
Secretary of State George Schultz when he said that whenever he 
met with his Soviet counterpart, and from him down to the 
lowest level State Department officer, he would bring with him 
a list of imprisoned dissidents and human rights advocates. 
Front and center of any discussion whether at nuclear arms or 
tension in the Middle East, Secretary Schultz would bring up 
dissidents, naming them by name. It was this constant focus on 
human rights that helped move the Soviet Government to allow 
Jews and others to leave the Soviet Union, great people such as 
the great Natan Sharansky.
    And I have another list of names I would like to read, that 
of six members of the Cuban National Front of Civic Resistance 
who have applied for visas to come to the United States, but 
for some reason, inexplicably, our State Department has refused 
to allow to visit the U.S. They are Orlando Gomez Echavarria, 
Jose Alberto Alvarez Bravo, Yaite Diasnell Cruz Sosa, Yoel 
Bravo Lopez, Lazaro Ricardo Fiallo Lopez, and Ciro Aleixis 
Casanova Perez. I call upon Secretary Kerry to allow these 
brave people to enter the United States so they can meet with 
all of us who want to hear their stories about what is truly 
happening on the ground in Cuba.
    Finally, I note that the administration has failed to 
secure the release of fugitives from justice, such as JoAnne 
Chesimard, who is on the FBI's Most Wanted Terror List, 
convicted of killing a New Jersey State Trooper, Werner 
Foerster. The administration must insist upon the unconditional 
return of Chesimard and all other fugitives from justice, as 
well as demand that the Castro regime respect the civil and 
political rights of the Cuban people before making any further 
concessions. And to underscore the point, unconditional means 
unconditional. There should be no swap where we exchange 
convicted Cuban spies like Ana Montes, or Kendall Myers for 
these fugitives as a concession to the Castro regime. The 
effect of that would be to trade Americans who have committed 
crimes in the United States for other Americans who have 
committed crimes in the United States demoralizing our 
intelligence community further in the process.
    With that, I want to turn to our witnesses. And before 
that, we turn to my good friend and colleague, Ms. Bass, for 
any opening comments she might have.
    Ms. Bass. Thank you, Mr. Chair.
    For me, I think I will probably sit here today and say 
minority in terms of what my opinions and viewpoints are. And 
with all due respect, especially to my colleague Albio Sires, 
who I know is a Cuban-American and had a terrible experience 
with his family and all in Cuba, but I do stand here as 
somebody who is happy that we have finally changed our policy 
in Cuba. For over 50 years having a policy that I think many 
people in the world viewed as a failed policy, and then our 
history on the island prior to 1959 was not positive, and I 
think in the last 50 years was not positive. The numerous 
attempts that have been--there are the numerous incidents that 
have been documented of the U.S. trying to overthrow the 
Government of Cuba, versus the Cuban people standing up, 
attempts by the CIA to assassinate Cuban leaders. There was the 
suspect plane that was shot down in the mid-1970s in which an 
entire athletic team was lost, a Cuban plane. And now we have 
President Obama who on December 17 finally changed our policy. 
Many countries around the world disagreed with our policy for 
many years. The embargo that we had really limited a lot of 
trade with Cuba, but over the years, especially the last 20 
years, a lot of countries began ignoring that embargo, and I 
think we looked rather strange, especially in the Americas. So 
the President reestablishing diplomatic relations while 
removing Cuba as a designation as a State Sponsor of Terrorism, 
increasing travel and commerce; I, frankly, have always felt 
that as a U.S. citizen I should have the right to travel 
anywhere in the world I choose to travel. The increase in 
remittances and trade and communications, the idea of U.S. 
companies beginning to have a physical presence on the island. 
We do know that the embargo still remains, and I'm hoping over 
time we lift that embargo.
    One concern I have in terms of Afro-Cubans that you 
mentioned is, I know that because of the remittances, not 
everybody has family here that can give remittances to their 
family members on the island. And maybe it's time we reconsider 
some of our other policies. For example, we provide a lot of 
U.S. support to media that is supposed to go into Cuba, but as 
I understand it, the Cuban Government blocks, and so I wonder 
what is happening with all of those resources. And maybe those 
resources could be redirected to help address some of the 
inequities in Cuba, especially with the Afro-Cuban population 
and the population that does not have the access to 
remittances.
    Again, I welcome my colleague here, Mr. Sires from New 
Jersey, and more than willing to share with the approval of the 
chair my time with him, so I would yield to my colleague.
    Mr. Smith. I would yield such time as it may consume to 
Albio Sires, a good friend and colleague from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, Ranking Member Bass. 
Thank you very much, and thank you for allowing me to 
participate with you today, both chairman and ranking member. 
And for holding this important hearing, and for allowing me to 
attend.
    It has been 18 months since our relationship with Cuba has 
changed, and what continues to trouble me is that for all the 
talk of additional actions to be taken by the United States, 
little has been said of the steps the Cuban regime must take. 
Far too much has been given already. We need to see more 
concrete measures in terms of human rights, political freedoms, 
and the release of all political prisoners.
    People are routinely jailed and innocent women are beaten, 
while Castro continues to harbor dangerous fugitives, including 
JoAnne Chesimard, one of the FBI's Most Wanted individuals for 
killing a New Jersey State Trooper, and then fleeing her prison 
sentence to live out her days on the island.
    What also upsets me is that while the Castro regime 
continues to oppress innocent people, he will be able to 
strengthen his grip on power by pocketing all the tourism 
dollars that the U.S. engagement will bring into the state-
owned businesses further depriving the Cuban people an 
opportunity at a better life.
    We need to do more to bring attention to the plight of the 
Cuban people and implore our neighbors to stand up to the 
Castro regime and speak out against the continued human rights 
violation.
    I thank my colleagues once again for holding this important 
hearing, and I urge the administration to finally make human 
rights in Cuba a top priority. Thank you.
    Mr. Smith. Mr. Sires, thank you very much, and I thank you 
for your leadership on human rights in general, but especially 
as it relates to Cuba. You have been tenacious, and I want to 
note that Mario Diaz-Balart was here earlier and when he served 
here and now out of office in like manner does the same great 
work. And Kristina Arriaga, I want to thank her. As some of you 
saw, she was sworn in earlier right before the hearing. She 
from being one of the leaders of the Becket Fund to the United 
States Commission for International Religious Freedom as one of 
the commissioners. And I look forward to her work on the 
Commission, and then the entire commission as we go forward.
    Is Lincoln still here? I guess Lincoln has left, but he was 
a great leader like his brother, Mario.
    Let me just introduce our very distinguished group of 
witnesses, people for whom, and I believe this subcommittee has 
just such great respect for beginning with Dr. Oscar Biscet, 
who was born in Havana. In 1987, he began practicing the 
medical profession and teaching at the hospital in Havana. Dr. 
Biscet openly opposed Cuba's communist regime and in 1994, 
Cuban authorities opened an official case where he was accused 
of carrying out ``dangerous activities.''
    Dr. Biscet was arrested in 1999, and officially accused of 
crimes such as dishonoring national symbols, disorderly contact 
and inciting delinquent conduct. These are obviously catchall 
phrases so often employed against dissidents. As a result of 
these accusations he was sentenced to 3 years in prison. After 
his release in 2002 he was rearrested but later released thanks 
to pressure from religious and human rights organizations.
    He received the Presidential Medal of Freedom from 
President George Bush. While this is Dr. Biscet's first time 
appearing before the subcommittee in person, he offered 
dramatic testimony, as I mentioned earlier before to the 
subcommittee in February 2012 when he testified via telephone 
from the U.S. Interests Section in Havana.
    We'll then hear from Ms. Sirley Avila Leon who is an ex-
delegate of the People's Assembly. She joined the democratic 
opposition after she was driven out of her position for trying 
to keep a school open in her community. Official channels 
ignored her and after she went to the international media, she 
was removed from office.
    Following escalating acts of repression by state security, 
she was gravely wounded in a machete attack in May 2015, in 
what was believed to have been an officially sanctioned attempt 
on her life.
    In September 2015, the Inter-American Commission on Human 
Rights concurred that she was in a ``serious and urgent 
situation since her life and physical integrity are at risk.'' 
In March 2016, she arrived in the U.S. to tell her compelling 
story and to obtain medical care.
    We'll then hear from Ms. Maria Werlau who co-founded in 
2012 and still heads the Free Society Project, a nonprofit 
organization to advance human rights through research and 
scholarship. Its leading initiative, the Cuba Archive Truth and 
Memory Project focuses on transitional justice issues and human 
exploitation.
    Ms. Werlau is a former Second Vice President of Chase 
Manhattan Bank and a longtime independent consultant 
specializing in Cuban affairs and other international issues. 
Her extensive publications on Cuba cover a wide range of 
topics, including policy, international law, foreign 
investment, and other economic issues. She has served task 
forces on U.S.-Cuban relations for the Council on Foreign 
Relations and the American Enterprise Institute.
    And then we'll hear from Mr. Geoff Thale. Mr. Thale 
oversees the entire range of the Washington Office on Latin 
America's research and advocacy, on Latin American policy, and 
human rights issues, along with a focus on specific countries 
and themes. Mr. Thale led the team that authored ``Forging New 
Ties,'' as well as recommendations for new directions in U.S. 
policy toward Latin America.
    Mr. Thale has studied Cuba issues since the mid-1990s, and 
has traveled to Cuba more than a dozen times, including 
organizing delegations of academics and Members of Congress. He 
coordinates WOLA's advocacy on this issue with a coalition of 
business, agricultural, and human rights groups who favor 
lifting the travel ban and rebuilding contacts between the 
United States and Cuban society.
    Dr. Biscet, the floor is yours.

   STATEMENT OF OSCAR ELIAS BISCET, M.D., PRESIDENT, LAWTON 
 FOUNDATION FOR HUMAN RIGHTS (FORMER CUBAN POLITICAL PRISONER)

    [The following testimony was delivered through an 
interpreter.]
    Dr. Biscet. Good afternoon. Thank you for the opportunity 
to address you on behalf of the suffering people of Cuba. This 
subcommittee of the House directed by Congressman Christopher 
Smith has been an unshakeable bastion of the promotion and 
defense of the freedom values of the American nation. These 
values that ennoble human dignity for those whose rights are 
violated flagrantly and systematically in my nation.
    In my country, Cuba, a small group of individuals using 
criminal conduct have taken over the administrative power and 
through state terror have kidnaped the sovereignty and freedom 
of the people and set up a society of fear. For more than 57 
years the basic human rights, the freedom to talk, freedom of 
the press, to gather, association, and religious freedom have 
been undermined against the dignity of my people.
    The socialist regime that rules my country run first by 
Fidel Castro, now by his brother, Raul, was imposed by force 
with the use of weapons of war and overrode the 1940 
Constitution. This Constitution was suspended de facto, never 
abolished de jure; that is why even in theory it is still in 
force and it declares the Castro communist regime as 
illegitimate.
    The 1940 Constitution guarantees the freedom and the human 
rights of the Cuban people through its Letter of Rights in 
Chapter IV. This letter was inspired in the American Bill of 
Rights of the United States Constitution of 1788, that 
strengthens modern democracy in the world starting with its cry 
of independence in 1776.
    Actually, the Obama administration has established 
diplomatic relations with the dictatorship in Communist Cuba 
violating the Act for Freedom and Cuban Solidarity, or known 
also as the Helms-Burton Law. But worst of all was the 
undermining of the American values of freedom enshrined in the 
Bill of Rights of its Constitution.
    Admirable Mr. Smith, Congresspersons, excellencies, I'm 
here today to highlight the honorable example of George Mason 
and Patrick Henry in the Congress of the State of Virginia 
where they firmly opposed to countersign the Constitution of 
the United States until the Bill of Rights was introduced. 
Congresspersons, don't allow that the creed of a nation, the 
Bill of Rights, continue to be violated flagrantly. Don't be 
tolerant maintaining the American and Cuban people separated in 
two nations, yours free, and mine, Cuba, slave. With your 
solidarity you not only enhance human dignity, but you 
accelerate the process through which democracy and freedom 
comes to the Cuban people.
    Thank you very much. God bless America and Cuba.
    [The prepared statement of Dr. Biscet follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Biscet, thank you so very, very much. I'd 
like to now turn to Ms. Avila, and please present your 
testimony.

     STATEMENT OF MS. SIRLEY AVILA LEON, DEMOCRACY ADVOCATE

    [The following testimony was delivered through an 
interpreter.]
    Ms. Avila Leon. My name is Sirley Avila Leon. I am Cuban, 
and I live in Cuba. Because of my work as a delegate to the 
Municipal Assembly of People's Power for the Majibacoa 
municipality since 2005 I have perceived, have seen the double 
standards of our leaders who in reality are not interested in 
the people. The biggest problems were bureaucratic. There was 
so much corruption that the system did not work.
    From the beginning, I started to take interest in the lives 
of the citizens and, in particular, the children of my region 
who walked more than 9 kilometers through difficult roads in 
order to attend the nearest school. The parents needing to 
accompany their children had no time to cultivate their land 
despite the abject poverty in which they lived. Some emmigrated 
to other villages in order to spare their children. I set 
myself to the task of demanding the school that the 
neighborhood needed so much. I reached the highest echelons of 
power in Cuba passing through all the intermediate levels, and 
although I managed to get a school built, it was soon closed 
leaving the village and rural children in the same situation of 
helplessness.
    Because of my work and my demands in favor of reopening the 
school, I began to be accused of being a leader, and the 
families of the farmers in my area began to receive threats 
that their school-age children would be taken away from them. I 
was threatened and repeatedly repressed by government 
officials, and in Havana I was even expelled from the Council 
of State and threatened with being accused of threatening state 
security.
    All this is what led me on September 8, 2012 to denounce 
the regime's human rights violations against the farmers and 
the people in general from the island itself by means of the 
broadcast Radio Marti. From that moment onwards I was a victim 
of several attempts on my life, attempts to eliminate me 
physically and other acts of vandalism against my farm, my 
animals, and my property all organized by the regime and its 
political police as part of its attempt to get rid of me.
    A young woman, Yudisleidy Lopez Rodriguez, alerted me to 
the fact that the political police had offered highly dangerous 
common criminals rewards for murdering me. She was killed on 
September 26, 2014 for publicly decrying an attack on me in 
which my bed was set on fire during the early morning. Her 
murder was covered up as a crime of passion.
    On May 24, 2015, I was attacked in my home by Osmani 
Carrion, who was sent by state security to kill me. I am sure 
he was sent by the political police because I later discovered 
that he was a highly dangerous common prisoner who had been 
granted parole only days before attacking me. He attacked me 
with a machete severing my left hand and mutilating my right 
arm and both knees. He did not cut off my head thanks to the 
presence of a child at the scene of the events, and thanks to 
God who protected my life so that I could be here today and 
offer my testimony. In the days before the attack the regime 
had started a rumor that I had sold the farm and had left the 
area so that the neighbors would not be concerned about my 
physical disappearance. And I am sure of this because today 
marks the 22nd anniversary of the sinking of the 13 de Marzo 
tugboat that claimed the lives of 37 men, women, and children.
    Today before this subcommittee of the Committee on Foreign 
Affairs and the United States Congress I want to ask two 
questions. Taking into account the U.S. Government's new 
relations with the dictatorship of Cuba, I wonder why has the 
situation of systematic human rights violations in Cuba not 
been a fundamental point in negotiations with the regime that 
has been in power for 57 years? How is it possible that the 
U.S. Government has made so many concessions to the regime of 
Cuba without demanding respect for human rights on the island, 
and justice for the many attacks on the civil and political 
rights of the Cuban people? I am a direct witness of the 
workings of the legal system in which citizens are not 
guaranteed any procedural safeguards.
    I am very grateful that over the years other victims of 
repression in Cuba have had the chance to come forward in this 
very space in order to denounce and publicize the realities of 
life in Cuba, and I thank you for giving me the opportunity to 
participate here today. I ask only that the Government of the 
United States, international human rights organizations, and 
the governments of the free world not abandon the people of 
Cuba in their struggle for freedom. Do not allow yourselves to 
be confused by the regime's propaganda campaign presenting Cuba 
as a country in transition. Cuba remains a military 
dictatorship. In Cuba, human rights continue to be violated, 
and the people of Cuba are now more alone than ever behind the 
curtain of foreign investors and North American tourists. I ask 
you not to abandon Cuba and to denounce the harsh reality we 
live. Thank you very much.
    [The prepared statement of Ms. Avila Leon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Avila, thank you so very much for your 
testimony and for suffering personal injury for your beliefs, 
and your testimony was outstanding.
    I'd like to now ask Ms. Werlau if you could present your 
testimony, as well.

 STATEMENT OF MS. MARIA WERLAU, PRESIDENT, FREE SOCIETY PROJECT

    Ms. Werlau. Thank you, Mr. Chairman and members of the 
subcommittee for the opportunity to offer you this testimony. 
Please consider for the record my more extensive written 
statement.
    Mr. Smith. Without objection it will be made part of the 
record.
    Ms. Werlau. Thank you.
    Today I will focus on the Cuban Government's continuing 
violations of the right to life. To illustrate the extreme 
contempt for human life the Castro regime has displayed from 
its inception, we need just recall three of its flagrant 
atrocities that occurred on the month of July of different 
years.
    In 1994, on a day like today, July 13, a group of 68, 
including many women and children, boarded a tugboat to escape 
to the United States. Three boats were waiting for them, 
alerted by infiltrators. With high-pressure water jets, they 
began ripping children from their parents arms and sweeping 
terrified passengers off to sea. Finally, they rammed and sunk 
the fleeing tugboat, drowning all those who had taken refuge in 
the cargo hold. With survivors clinging to pieces of wreckage, 
the pursuing boats then circled around them seeking to drown 
them with wave turbulence. Thirty-seven perished including 11 
children.
    Fourteen years earlier, on July 6, 1980, Cuban Navy boats 
and an air force plane had attacked an excursion boat that 
toured the Canimar River of Matanzas loaded with passengers who 
tried to flee to the United States. The exact number of victims 
from that massacre is unknown, but numbers in the dozens and 
included children.
    Among hundreds of July victims of the Castros, two stand 
out. On July 22nd, 2012, Oswaldo Paya, arguably Cuba's leading 
opposition figure, and Harold Cepero, a young activist from his 
organization, were killed in a car accident believed to have 
been caused by state agents. These are just examples of the 
large-scale and growing tragedy the Cuba Archive Project, which 
I head, is documenting and for which the Cuban regime has not 
been held accountable.
    To date, we've recorded over 6,100 deaths and 
disappearances caused by the Castro regime--or so attributed to 
the Castro regime by our Project--not from combat situations. 
Each has a detailed record. The victims include infants, 
pregnant women, the elderly, human rights defenders, Protestant 
pastors, Jehovah's Witnesses, political prisoners, young men 
objecting to military service, and anyone who gets in the way 
of the Castros. Also on the list are 21 U.S. citizens executed, 
assassinated, or disappeared, and six killed in terrorist 
attacks sponsored or supported by Cuba.
    We know, sadly, that this count is woefully lacking. What's 
more, for it to be comprehensive it would have to include many 
more Cubans who have perished and extended to many countries 
where Cuba has created, supported, and promoted wars, 
subversion, and terrorism as today in nearby Venezuela and 
Colombia. The human toll of the Castro dynasty is easily, in my 
view, several hundred thousand and counting.
    Things are not much better since Raul Castro, until 10 
years ago the number two man, assumed supreme command in Cuba, 
replacing his brother, Fidel. Since then and until last 
December 31st, Cuba Archive has documented 264 cases of death 
and disappearance, a count we know is very incomplete.
    A particularly troubling aspect of the ongoing crimes of 
the Cuba regime relates to the grave abuses committed by Cuban 
authorities against persons attempting to escape the country. 
The attacks appear to have declined, in part because Cuba has 
perfected a highly lucrative business from exporting people 
that welcomes most departures; yet killings, beatings, torture, 
and other abuses perpetrated on those fleeing have not stopped.
    To take just one example, on December 16, 2014, the day 
before President Obama made his surprise announcement of 
normalizing relations with Cuba, 32-year-old Liosbel Diaz 
disappeared after Cuban border guards sunk, reportedly in 
international waters, the boat in which he was escaping with 31 
passengers, including women and children.
    What's perhaps more egregious is the aberration of a 
tropical Berlin Wall at Guantanamo, altogether overlooked by 
the free world. Twenty-six years after the fall of the infamous 
Berlin Wall, a deadlier replica now lasting twice longer stands 
in Communist Cuba. Barbed wire, mine fields, watch towers, 
ferocious dogs, sharpshooters, all to prevent escapes to the 
U.S. base in Guantanamo. It has a sordid extension, a sea wall 
in the Bay added in the mid-1990s to prevent swimmers from 
reaching the U.S. base.
    Cuba Archive has documented several dozen individuals 
killed or disappeared while attempting to flee to our base in 
Guantanamo, but we believe that hundreds, perhaps thousands 
have paid with their lives, limbs, eyes, or years of prison for 
attempting the crossing in the last 5\1/2\ decades. Our 
Government is well aware of the land mines on the Cuban side 
and that the Cuban guards stationed around our base have orders 
to shoot to kill the fence jumpers.
    Let me finish with an important clarification. Our work is 
not primarily about lists or statistics. Each number or name on 
these lists, or the victims missing from them, is a story, a 
stolen life, a circle of loved ones left behind in grief, and 
to date without foreseeable justice. We try to honor each 
person by gathering as much information as possible and 
dedicating an individual record of our database to each one, 
but it is impossible to have a full tally of the magnitude of 
this tragedy, and much less to convey the loss and suffering 
connected to each story, or to this overall calamity. At times, 
it overwhelms.
    I urge you to visit our Web site, CubaArchive.org, and 
familiarize yourself with these stories, at least see some of 
the faces, as we have pictures of many victims. The Cuban 
regime is guilty of egregious, extensive, and ongoing crimes 
against humanity. This is an amply documented fact that 
reputable governments and institutions, as well as principled 
individuals can only ignore at will. I firmly believe that 
continuing to afford the Cuban Government impunity and engaging 
it on its terms only produces more victims and provides 
resources for its tyrannical ways. That is not just bad for the 
Cuban people, the imprint of this regime is exported globally 
with the help of rogue allies, and that is to the detriment of 
our security and of global freedom and peace. Thank you.
    [The prepared statement of Ms. Werlau follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Werlau.
    And I'd like to now go to Mr. Thale.

  STATEMENT OF MR. GEOFF THALE, PROGRAM DIRECTOR, WASHINGTON 
                    OFFICE ON LATIN AMERICA

    Mr. Thale. Thank you, Mr. Chairman, thank you, Mr. Sires 
and Ms. Bass, as well, for the opportunity to speak here. I 
will probably present, as Ms. Bass said, something of a 
minority view on the panel.
    I'm the Program Director of the Washington Office on Latin 
America. We look at human rights and social justice issues in 
the hemisphere. I have followed Cuba issues since the mid-
1990s, and I've traveled there about three dozen times. We have 
a pretty broad set of contacts from Cuban Government officials 
through academics, the religious community, and to people in 
the dissident community.
    I think we heard on this panel a set of very serious and 
real concerns about the human rights situation in Cuba. There 
are serious and real human rights problems on the island; 
although, I probably wouldn't paint them in as uniformly grim a 
way as some of the other panelists here would. But I think the 
question is less about the specifics of the situation than 
about how the U.S. responds to that situation. And the argument 
I would make is that after we have spent 56 years on an embargo 
and a policy regime change, this had little impact on the human 
rights situation on the island. Since December 17, we've made 
what I think is a healthy shift to a policy of engagement that 
over time is far more likely to make a real difference in the 
human rights situation in Cuba. It will give us an opportunity 
to project our values and our interests, and will strengthen 
broadly our contacts in human society.
    So overall, I want to make three points, one very quickly 
about Cuba today, one about changes that are going on in Cuba 
itself, and then finally come back to the U.S. role in 
addressing the human rights situation and U.S. policy toward 
the island.
    We've heard about the human rights situation in Cuba today. 
There are violations of freedom of speech and freedom of 
association. There's only one legal political party on the 
island. Those are real and very serious concerns. And as we've 
heard, there's harassment of dissidents, and though we didn't 
talk about it much here, pretty clearly a policy of torture and 
detention of dissidents.
    As important for most Cubans along with the human rights 
situation, probably for most Cubans more important, the economy 
is stagnant and people, especially young people, are looking 
for opportunity. I don't think we should paint everything as 
grim in Cuba. Life expectancy is long, the medical system is 
reasonably good, literacy is high. There have been some efforts 
to address racial inequity, LGBT issues, and women's 
participation in the workforce. All that said, no question 
there are real and serious human rights in Cuba.
    I think what's important, my second point here, is that 
there is a process of change going on on the island itself. I 
think we know about some of the economic changes. They are 
halting, there's a lot of back and forth in this process, but 
there's clearly movement toward the emergence of a private 
sector, toward greater foreign investment, and toward what 
eventually will be a more mixed economy in Cuba.
    Along with that, and I think this has been less talked 
about, but I think it is evident that within Cuba itself we 
have seen greater political openness, and greater political 
debate, and greater access to and sharing of information in the 
last several years than we have seen in previous decades. And I 
think that's important.
    I think we've seen the spread of cell phone technology. I 
think we've seen limited but real increases in Internet access. 
I think we've seen far more blogs and bloggers in Cuba itself 
expressing a much wider range of political opinions. I think 
we've seen the sharing through thumb drives of regular sets of 
information, including a lot of information from the United 
States, and everything from newspaper columns to the latest 
television shows. I think we've seen greater official tolerance 
of all of that behavior, and I think we've seen more debate 
among the nascent civil society, in the academic community, and 
even at official Cuban media than we have in the past. So I 
think there's a limited, we shouldn't exaggerate, but there's a 
real process of internal change going on driven in part by the 
economic change, driven in part by increased access to 
information and the internet.
    In that context, the change in our relationship with Cuba 
is important. Before December 17th, our policy, a policy of 
embargo and regime change, did very little. I think if you look 
back, it did very little to actually encourage change on the 
island. In fact, more often than not, it offered the most 
hardlined sector in the Cuban Communist party an excuse to 
crack down further on dissent. I think since December 17th and 
under the new approach we have seen that U.S. policy 
interacting with changes going on on the island encourages 
greater openness and greater tolerance.
    We heard a comment earlier about President Obama's visit, 
and I'd say I think President Obama's visit is actually an 
example of ways in which U.S. engagement helps open space. The 
President came, he gave a press conference. Raul Castro may or 
may not have responded to the question about human rights and 
political prisoners, but he was forced for the first time in 
public and on Cuban television to answer a set of uncensored 
questions from an international press audience. The President, 
our President, followed that with a nationally televised live 
speech in which he warmly greeted the Cuban people and made 
some of the strongest criticisms of the Cuban Government that 
they've heard on public television in many years. And then that 
whole visit was both preceded and followed by real debate in 
Cuban society, in its blogosphere, and even in the official 
media about what the President's visit was and meant, and what 
its impact has been.
    So I think the argument is, in fact, our engagement rather 
than allowing the Cuban Government to tighten its grip, has 
actually helped loosen the grip, and increased flexibility, 
access to information, and openness. I think it's clear the 
President's policy and our approach to Cuba is broadly 
supported on the island itself. Polls show that Cubans 
overwhelmingly support normal relations with the United States 
and, in fact, that many Cuban dissidents and whatever their 
view of the government support normalization of U.S.-Cuban 
relations. It's clearly popular in the Cuban-American community 
here, and among U.S. population in general. And I think over 
time it is going to contribute to greater political openness in 
Cuba, and that is in our national interest and the interest of 
the Cuban people.
    We shouldn't be naive about that process. It will be slow, 
it will be complicated, there will be difficulties along the 
way, but I think in the end the evidence is very strongly that 
a policy of engagement is more likely to contribute to change 
in the human rights situation in Cuba than the policies we've 
had in the past. Thanks.
    [The prepared statement of Mr. Thale follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Thale, thank you very much.
    I'd like to begin the questioning first asking Dr. Biscet. 
Years ago I met Armando Valladares, who had spent numerous 
years in Cuba prisons. He was tortured horribly. He wrote a 
book called ``Against All Hope,'' I've read it twice. I 
actually went with him to the U.N. Human Rights Commission. 
Frank Calzon has been there many times bearing witness to human 
rights abuses, including sex trafficking, and I'll never forget 
reading the book when he described the tortures that were 
systematic, the Ho Chi Minh poles, the terrible degrading 
perversions that were imposed upon political prisoners by the 
guards with the full assent of the Castro brothers for years. 
And I wonder if you could tell this subcommittee what it was 
like for you when you were in prison, how were you treated? How 
much time did you spend in solitary confinement? And if you 
could just provide us that insight.
    It was books like Richard Wumbrand's ``Tortured for 
Christ,'' which got me into the religious freedom issue back in 
1981 when he talked about what Nicholae Ceausescu's secret 
police, called the Securitate, had done, that it woke up many 
of us in Congress about what, in that case, Ceausescu was all 
about.
    In the Communist regime of the Soviet Union, Solzhenitsyn 
laid bare what was going on in the gulags in Siberia. It is 
important that we know truly what's going on behind those 
closed doors. If you could provide us with some insight?
    [The following was delivered through an interpreter.]
    Dr. Biscet. When one wants to know the nature of a society, 
first visit their prisons. And perhaps that's why the Castro 
Communist regime doesn't allow anyone to visit; the 
International Committee of the Red Cross is not allowed in, 
Amnesty International is not allowed in, Human Rights Watch is 
not allowed in, because then they would see the perverse nature 
of that regime. And first you need to remember that what you 
have in Cuba is a totalitarian Communist regime. You need to 
remember Stalin, remember Hitler; that's what you have in Cuba.
    When many were making a profound critique of torture taking 
place in the Naval Station Guantanamo Bay prison camp with the 
terrorists, Fidel Castro at the same time was torturing in 
Cuba. One of the tortures that they used to commit was to hang 
people from the roof, from the ceiling with handcuffs with 
their legs dangling in the air for 10 to 24 hours. Another one 
was where they handcuffed individuals with their hands behind 
their back, and also handcuffing their feet in a reverse fetal 
position and leaving them several hours in their cell in that 
prone position. Another one is that they used the electric 
shock gun as a tool of persuasion for those who protest or 
complain. Another punishment that I saw was to be closed off in 
a punishment cell sometimes completely closed off, sometimes 
not, but with people sick with active tuberculosis. Another 
thing that I saw and suffered were being placed in small cells 
with people with HIV, but also with people who are mentally 
ill, and in that process people becoming infected with the 
virus. In another case they placed me in a very small cell with 
people who were mentally ill, taking away their psychotropic 
medication so they would be in a state of delirium so they 
would attack me. Also, the political police use common 
political prisoners to force dissenters to cease and desist 
from their thinking by inciting to beat them. On three 
occasions, three inmates tried to murder me sent by officials 
of the prison. And this is how they with these inhuman 
practices seek to drive mad those who are there innocently. On 
one occasion, I was kept 5 months in a dark punishment cell. I 
only received water once a day, and it was at the same spot 
where one would defecate. In this cell, on one occasion I was 
without the ability to speak to another human being for 1 
month. In broad strokes, those are the tortures applied or 
carried out in the prisons.
    We know that the Castros use the prisons and the common 
prisoners to try to break the freedom spirit of the Cuban 
people. In my last years in prison, my last 10 to 12 days, I 
was just eating bread and water because I feared that the 
political police would have me murdered. And they not only 
torture the person who dissents, but also their families. 
Families, when they go to make their visits, are searched and 
harassed as if they were criminals. And food and nutrients or 
vitamins that are taken there are also searched and often 
damaged in ways that negatively affect the health of the 
prisoner. And they also use the suspension of family visits as 
a way to impact not only the family, but also the prisoner. And 
the most barbaric thing I've seen, also, is the use of medicine 
as an instrument of torture where patients who are sick are 
denied medical assistance, and then have died.
    Mr. Smith. As we said, I do have a lot of questions. I'll 
ask one, yield to my good friend, Albio, and then come back to 
some of those questions. But let me just thank you for giving 
us that terrible insight as to what you have endured.
    I have tried to get to Cuba for 20 years and have been 
denied a visa each and every time. Most recently, I met with 
Jose Cabanas, the Ambassador of Cuba to the United States. He 
made it clear that if I were to go, I'd have to agree to 
certain parameters in terms of who I could meet with. And I'm 
wondering, Mr. Thale, last time you were here in February 2015 
testifying, I asked you if you had in your many visits, and I 
think you said 36 so far, or approximately, whether or not you 
visited any dissidents in prison, and I'm wondering have you 
done that, one. And, secondly, did you raise the case with your 
Cuban interlocutors the case of Dr. Oscar Biscet while you were 
in Cuba?
    Mr. Thale. I have not visited a prison on my trips. I have 
visited----
    Mr. Smith. Have you requested to do so?
    Mr. Thale. No, and I'd be happy to do that, as a matter of 
fact. In Cuba and in many countries prison systems are terrible 
places and need to be reformed, and I'd be happy to make that 
request. And I know there's been discussion about the ICRC 
visit, so think that's perfectly legitimate.
    I have not raised Dr. Biscet's case. I have raised a number 
of cases, of individual cases as well as general human rights 
cases with Cuba authorities----
    Mr. Smith. But no specific dissidents, or no dissidents by 
name?
    Mr. Thale. I have named--no, I've named a number of 
individual cases over the years, including the 75 who were 
arrested in 2003. I raised that personally with the Cuban 
Foreign Minister, so I've raised a range of those cases. I 
obviously raised the Alan Gross case, as well.
    Mr. Smith. Just so I know, was there any reason why you 
didn't raise Dr. Biscet? There was a campaign that Albio Sires, 
Ileana Ros-Lehtinen, Lincoln Diaz-Balart, Mario Diaz-Balart, 
and I, and many others to have Dr. Biscet named as a Nobel 
Peace Prize Laureate. I know he was under review for that. It 
was a global effort. We certainly in Congress had a bipartisan 
effort to do so. His prominence and his gravitas, his courage, 
I don't know how he survived all of the cruelty that was 
imposed upon him. I have no idea. Faith, I'm not sure how he 
could have survived it, and to be here speaking so eloquently 
and in such calm tones when he has been so maltreated by a 
dictatorship. I would have hoped you would have raised his 
case.
    Maybe you could help me get that visa, because I want to go 
to the prisons. I have been asking--just let me say 
parenthetically and I, again, will yield to Dr. Biscet. I've 
been in Chinese gulags, Beijing Prison Number One, when Xanana 
Gusmao of East Timor was in a Jakarta prison. Jakarta, the 
Indonesians allowed me into that prison. Along with Frank Wolf, 
we got in during the worst days of the Soviet Union into Perm 
Camp 35 which is where Sharansky was held and many other 
political prisoners. All of those dictatorships allowed us in 
into the prisons, and we can't get into the prisons of Castro's 
Cuba. It is very telling. Albio.
    Mr. Sires. Thank you, Mr. Chairman. Dr. Biscet, thank you 
very much.
    You know, Mr. Thale, I came here when I was 11 years old, 
1962, and I have been dealing with the Cuban community where I 
live ever since. I represent the second largest concentration 
of Cuban-Americans outside of Miami. And I get that 55 years or 
57 years without any kind of talking. It's a long time, but my 
biggest complaint is that we have given away pressure points 
where we could have drawn concessions from the Cuban 
Government. At a time when Venezuela can no longer provide the 
kind of assistance that it provided before, at a time when 
Russia can't actually do anything for Cuba, Cuba seems to be on 
its own, and we seem to be throwing them a lifesaver, in terms 
of getting concessions from them. This government is not going 
to give any concessions until some pressure is put on them. And 
the President can go to Cuba, the Pope can go to Cuba, two 
Popes can go to Cuba and nothing changes. So to me, you know, 
this picture that you paint of all these changes, I disagree 
with you. I don't think it's that great of a change.
    People go to Cuba, they tell you who you can meet with. 
Have you met with dissidents? Do you get a chance to meet with 
any dissidents you want? Because I know that Members come, you 
know, first thing they tell the Members when they go to Cuba is 
this is the group of people you can't meet with.
    I'm not finished yet. In terms of the economy, 85 percent 
of the economy in Cuba is controlled by the government. When 
they talk about economic growth for the people of Cuba, we're 
not talking about the people of Cuba. Maybe they own an ice 
cream parlor, maybe they sell hot dogs, maybe they sell 
hamburgers, but still you have companies that go to Cuba and 
they have to ask the government for the workers. And the 
government tells you what to pay, and then they in turn pay 
peanuts to the workers of Cuba. So how are the Cuban people 
going to benefit?
    My complaint is we just don't insist on concessions from 
this government. And, you know, I don't know, I've made it 
clear to the President. I'm not telling you anything that I 
haven't told the White House, or I have said at the committee. 
But, you know, negotiations are a two-way street. Now they want 
Bank of Cuba, they want Cuba to buy--they don't--they can't buy 
anything. They're one of the biggest debtor nations in the 
world, so how are they going to buy anything? They're going to 
run billions of dollars of debt and then they're going to 
expect people to forgive the money. So I know we have to start 
someplace, but my biggest problem is we started and we didn't 
get any real concessions.
    And in terms of JoAnne Chesimard, I'm constantly meeting 
with the State Troopers in New Jersey. I was the Speaker of the 
House in New Jersey for 4 years. We went down Florida when they 
put the $1 million bounty on JoAnne Chesimard, and we had a 
press conference. Now it's $2 million. And now they're talking 
about exchanging prisoners, Montes for JoAnne Chesimard. 
There's no reason we should give up a spy because you have a 
person who shot somebody point blank on the New Jersey Turnpike 
and ran to Cuba, and has been living there as if she was a 
hero.
    So, I get your position, I understand your job. You get 
your orders, but what I have said to you I have told the people 
at the White House. I've been here 10 years and I've been firm 
on my position. You want something for Cuba, give me something 
in return. Stop the abuses. Just listen to some of the abuses. 
Why must we always give in?
    And as far as all the--I get this--people tell me all the 
time oh, we now have a better relation with everybody else 
because now--there's not one country that has spoken up about 
the abuses of human rights in Cuba for 18 months. I hear 
Argentina talking about the abuses in Venezuela, but I don't 
hear anybody talking about the abuses in Cuba. So that argument 
to me is bogus because they don't speak, they're afraid of the 
Cuban Government. They're afraid that they may foment the 
college studies and the universities in their country against 
the government if they speak up. So there you have it; tell me 
what you think.
    Mr. Thale. Well, thank you, Congressman Sires. 
Respectfully, obviously, we do see the situation differently. 
I've had family that lived in Cuba at one time or another, but 
I'm not Cuban-American, and my family members were passing 
through. My family is Irish, and they feel--through three 
generations feel personal and incredibly powerful stories about 
the British and their attitude toward the Irish. And I 
understand those kind of strong personal feelings. So I 
understand, and I think we've heard stories here that are very 
real, and very powerful. I understand the importance of that.
    My view is that the decision to normalize relations was 
made because it was--I think because it was in the U.S. 
national interest to do so. I think it did help with our 
relationship with other partners in the hemisphere, 
particularly with Colombia. I think it does help with some of 
our business interests, and I think it's fundamentally clear 
that what we have done over the last 57 years, which is to say 
no concessions, no nothing until you change or collapse hasn't 
worked, so I think we need a new approach. I don't think that 
the Obama administration came in, and I know we'll dispute 
about this, but came in saying we're going to make concessions. 
I think the Obama administration came in saying we are going to 
take a new approach that's in our interest, and that we believe 
over time will lead to change in your society. I don't think it 
came in saying the changes will be A, B, C, and D in exactly 
this order, and we're going to tell you what to do, but I think 
it came in believing that engagement and ending hostility is 
more likely to generate greater flexibility and more people 
inside Cuba and inside Cuban society who want to push for 
change internally and on their own terms. And I think we're 
beginning to see that. I don't think it's easy. I don't think 
any of this process is magical, but I don't--but I do think 
that over time it's far more likely to make a difference.
    Mr. Sires. I want the best for Cuba. I just think we have 
different ways from my experience, my life experience of how to 
approach and deal with the Cuban Government. I'll just give you 
an example that just happened to me. My aunt came from Cuba not 
too long ago. She went back to see her daughter. I asked her to 
get me a copy of my birth certificate. She went to the 
Municipal Building, they denied my birth certificate because 
they said I was a terrorist. So like anything in Cuba, they 
gave $20 to somebody, I have four copies in my house today. I 
can tell you other things that has happened to families of mine 
because they're related to me, how they lost their job, how 
they pressure the family. And people that were educated on the 
island, and educated in Russia, once they found out they were 
my cousins, they became persona non grata. So, you know, I do 
have emotional ties to Cuba, but my biggest problem is look, 
let's negotiate, let's negotiate.
    And this business that the Cuban people are improving the 
economy when 85 percent of the economy is run by the 
government, and if you don't work for the government you can't 
get a job, which is what happened to my cousin. He was an 
engineer; he lost his job. And where do you go; you're an 
engineer in Cuba and you don't work for the government? You 
become a taxi driver.
    Mr. Thale. The emerging private sector in Cuba does 
probably include between 25 and 30 percent of the workforce. 
Within that, there's a small set of people who are making real 
money. I think there's very little question about that. And 
then there actually is--we're beginning to see for the first 
time in 55 years people working in the private sector for 
others. Right now, those people are probably making more than 
they'd make in the state sector; although, down the road we'll 
have to see what happens there. But there is an emerging 
private sector. It is not the----
    Mr. Sires. It's a small group of people that are 
benefitting from the tourists, but it's not the island or the 
workforce of the island. That's still controlled by the 
government.
    Mr. Thale. So the government workforce is probably 70 
percent, 75 percent. It's smaller than it was, but it's clearly 
an overwhelmingly majority; that's true. All I'm saying is that 
we are seeing the beginnings of a small private sector 
emerging, and within that we're seeing some workers and some 
owners.
    Mr. Sires. Mr. Thale, quite frankly, a lot of that force, a 
lot of those people were there before the engagement. Okay? A 
lot of these people that were selling and trading, and 
everything else, it was there before we did this engagement 
with them, so there was already a small amount of people 
trading back and forth within the country. You can only repress 
an economy so much. The Cuban people tend to be pretty good at 
making a buck, whether it's here or there. Thank you.
    Mr. Smith. Thank you, Mr. Sires.
    I'll ask a question or two, then yield to my friend. And 
then I have some final questions after that.
    The Washington Post has been probably the most outspoken in 
its editorial pages; one of the editorials was ``Failure in 
Cuba.'' They've had a series of important statements to be 
made. They've pointed out that the economic lifeline to Cuba 
when the Soviet Union diminished, then Russia in terms of their 
ability to provide economic assistance to Cuba; Venezuela, with 
the decline of oil prices they lost their capability. Now 
they're really in dire straits and cannot funnel money to 
Havana. And then the U.S. stepped in right at the precise time 
to keep the dictatorship afloat.
    The Washington Post, one of their editorials, on January 31 
said, ``Mr. Obama continues to offer the Castro regime 
unilateral concessions requiring nothing in return. Since the 
United States has placed no human rights conditions on the 
opening, the Castro regime continues to systematically engage 
in arbitrary detention of dissidents and others who speak up 
for democracy. In fact, detentions have spiked in recent 
months. The state continues to monopolize radio, television, 
and newspapers.''
    In another just published editorial, this by Jackson Diehl, 
deputy editorial page editor, he writes and he does profile Dr. 
Biscet. He says that, ``Obama's policy has had the effect of 
stranding the most American pro-democracy people in Cuba, the 
activists who have spent their lives fighting the system at 
enormous personal cost. While the regime collects U.S. 
cooperation in dollars, repression of the opposition has 
sharply increased. According to the Cuban Commission for Human 
Rights, there were 6,075 political arrests during the first 5 
months of this year, 2016, the highest number in decades.'' If 
that isn't a clear suggestion of a failed policy, wait, and 
wait for what, as things go from bad to worse, as more people 
are being rounded up, as catch and release becomes the modus 
operandi for the Castro brothers. So I think we need to put 
this in perspective.
    I was for the Apartheid sanctions against South Africa, the 
sanctions against Russia most recently, the sanctions against 
China when they were in place. Unfortunately, they've been 
lifted, and we have seen a diminution of human rights respect 
under Xi Jinping's regime in the People's Republic of China. We 
put sanctions on in order to say we're not kidding, conditions 
are about human rights, and about the great people like Dr. 
Biscet and others who are suffering unspeakable cruelty because 
they want freedom and democracy.
    I would ask a question, how many people--and maybe, Ms. 
Werlau, you might have this answer, one of you might. How many 
people has the Castro regime tortured over these many decades? 
How many people have they killed because of their political 
positions? It seems to me the number is so high, and I've seen 
estimates, but I would appreciate your thoughts, that the 
Castro brothers ought to be referred from the Security Council 
to the International Criminal Court, the ICC, the tribunal for 
crimes against humanity. We are talking about large numbers of 
people over the course of many decades, systematic repression 
and, of course, a systematic murdering of people who don't 
agree with the regime. Your thoughts? And, again, if anyone has 
any insights as to how many people. Ms. Werlau?
    Ms. Werlau. I don't think anybody can answer how many 
people because we simply don't know. But I just want to point 
out that the Stasi files that were recovered point to around 
60,000 political prisoners, I forgot, I think in the early 
1970s or late 1960s. There are just no statistics.
    But I do want to say something that comes to mind. We do 
know how many the Pinochet dictatorship killed in its 15-year 
life, and that's 3,187 is the total of disappeared and killed 
by the Pinochet regime. And I never heard any human rights 
organization argue that we must engage the Pinochet regime on 
its own terms, that we must somehow convince them, by giving 
people cell phones or whatever, that they need to change. The 
fact of the matter is, the Chilean society was never 
totalitarian, and yet the whole community, the whole worldwide 
community, condemned dictatorship in Chile. And that's what's 
been missing, a multilateral approach to say we're not going to 
engage an illegitimate criminal regime on its terms. We're 
going to demand conditions.
    What has failed is that government. Engagement has been 
tried by European countries, by Canada, by Latin America for 
decades; we traded, invested, supported, given credibility, 
given assistance to Cuba, you name it, and nothing has worked. 
What we need to do is to try to get a multilateral approach to 
understand that that is the nature of that regime, that we must 
set conditions to engage it.
    [The following was delivered through an interpreter.]
    Ms. Avila Leon. I was surprised to hear the defense of the 
regime by the gentleman on my left. The rental houses provided 
by the regime have been used as a reward for torture, for 
assaults. This is similar to what happened with the opening of 
agricultural and other properties, that it was done for a show 
externally, but it was being provided to those with privileges 
in the regime, with those that are well connected. It's not 
something that helps the Cuban people.
    And if you want a more clearer demonstration of the failure 
of this policy, is what happened within hours of President 
Obama's arrival in Havana, which was the repression and 
violence visited upon the Ladies in White in Todos Marchamos.
    Sole proprietors are getting most of the money. They're 
there to control tourists, they are getting their remittances, 
but I can provide firsthand evidence. My son, who was 18\1/2\ 
years a member of the Cuban Armed Forces for not tying me down 
and declaring me insane was fired from the Armed Forces, and is 
unable to get work now.
    I believe that the gentleman who was testifying to my left, 
what he's reporting on is the regime's propaganda campaign. 
It's what he's observing. The investors and the tourists are a 
smokescreen that do not demonstrate the profound poverty that 
the Cuban people are submerged in, the cruel poverty, which 
really does descend to the level of slavery in terms of the 
little payment that is provided for those who work in the 
government sector. And I invite those who have this view, if 
they come to Cuba to walk with me, and I can show them the real 
Cuba.
    [The following was delivered through an interpreter.]
    Dr. Biscet. I think we need to remember people, we who are 
present here, that when I said that this regime is Hitler and 
Stalin-like, it is Hitler and Stalin-like. The number of dead 
may not be the same, but there is a machinery of death that 
operates as that of Hitler and Stalin. They arrived in power 
January 1, 1959. Raul Castro engaged in the first mass 
execution with a mass grave in the first month of the 
revolution; 900 people in the first month were executed, 500 of 
them for thinking differently. They did not pertain to the 
previous regime. The death penalty exists to terrorize the 
population and to control it.
    Prior to the revolution between 1902 and 1950, there was no 
practical death penalty in practice in Cuba. There was a 
regulation that if someone in the military was a traitor to 
their country with a foreign power, they could be executed, but 
beyond that it didn't exist on paper, and it wasn't applied in 
practice.
    This dictatorship has engaged in mass executions, mass 
jailings, mass confiscations of properties to impose state 
terror, and to use the state terror to control the Cuban people 
through fear. So it really is state terrorism, and there is a 
Cold War continuing in our country, but it is against our own 
people. And these days because that terror has been so 
effective, it doesn't have to be a mass terror, it's a 
selective terror against all who raise their voice, all who 
associate freely or assemble freely. They can be targeted.
    The last three young men to be executed in Cuba in 2003, 
young Afro-Cuban men, were executed with the purpose of 
terrorizing the Cuban population, especially the Afro-Cuban 
population. Since then there have been no more executions, but 
the death penalty remains on the books. Raul Castro has said 
that if they need to do what they did in 2003, they will do it 
again. And please have that present.
    Ms. Bass. Okay, we're going to be called for votes in just 
a second. Okay, I just wanted to say a couple of things. Number 
one, I do hope that I see the day in the United States that we 
get rid of the death penalty, as well.
    I just wanted to correct a couple of things, or at least 
give my viewpoint, anyway, of President Obama's visit. I was 
there with the President, and I thought it was frankly 
extremely remarkable that the President of the United States 
spoke to the Cuban people and was quite openly critical of 
Cuba. He had a meeting with dissidents, and the people that he 
met with were chosen by the U.S. Embassy, they were not chosen 
by the Cuban Government. I think, frankly, that that was a very 
remarkable thing, and I could only imagine a head of state 
coming to the United States and meeting with a group of Black 
Lives Matter or other people here who have issues, or raise 
issues in the United States and say that Raul Castro wants to 
come and visit San Quentin, or wants to raise questions about 
what it happening in this country, raising questions about the 
African-American population in the United States, why so many 
people have been killed by police officers, why the 
unemployment rate is so high, why the education rate is low, 
why we have systemic discrimination in the United States.
    So I think that, to me, 50 years of one policy that didn't 
work, I understand the definition of insanity is to keep going 
the same thing and then expect different results. To me, it 
makes sense that we have a new policy and it is certainly my 
understanding when the Obama administration has been in 
negotiations with the Cuban Government, that they have 
consistently raised human rights, human rights violations. And 
it's my understanding that when we engage in negotiations with 
many other countries, that that is also what we do. We don't 
leave that off the table.
    With that, I'm going to go vote. Thank you. I'll yield back 
to the chair.
    Mr. Smith. Thank you very much. Dr. Biscet, you wanted to 
finish your comment?
    [The following was delivered through an interpreter.]
    Dr. Biscet. I think it's important because we just brought 
up the issue of race, and I think it's important that we talk 
about the issue of race in Cuba.
    In the U.S., these difficulties can be resolved in the 
court of law where the judiciary is independent, but in Cuba 
the courts are subject to the arbitrary whims of the executive.
    The Afro-Cuban population in Cuba is one that's most 
discriminated against, but that's not the greatest issue 
confronting Cuba. The greatest issue is the political and 
ideological apartheid that exists in the country where all 
persons who think or speak differently are discriminated and 
looked down upon by the Cuban regime.
    In Cuba there's no right to vote, there's no right to free 
elections. The elemental human rights that are defended so much 
here in the United States are what is lacking, or what are 
lacking in Cuba. The history of the United States and the 
people of the United States is a beautiful story of 
integration. When you fought for your independence from Great 
Britain, there were Cubans on the island who sent assistance to 
help you in your struggle. There were poor families in Cuba 
that although they had very few resources gave what little they 
had to assist in the independence of the United States. And 
we're also very proud that the American people took a part in 
the independence of Cuba. And when the Joint Resolution of 1898 
was done, it guaranteed the independence and freedom of the 
Cuban nation. Four years in 1902, thanks to this Joint 
Resolution to this document, the Cubans had their freedom and 
their independence. And it was signed here in this place by 
this Congress, and signed by President McKinley.
    And we also have to be proud of another law that exists 
today, which is the law of freedom and solidarity, otherwise 
known as the Helms-Burton Law which guarantees a democratic 
Cuba. And that document has within it that law, that to have 
diplomatic relations that the regime or the government that 
you're dealing with has to be undergoing a transition to 
democracy, or that it be a democratic government. Nevertheless, 
this law has been violated by the administration that's 
actually in power. Our people are still living under this 
modern slavery which is communism and socialism.
    Many years ago, your country had a Civil War because part 
of the country wanted to maintain part of the population in 
slavery, and that violated the U.S. Constitution; principally, 
those basic human rights found in the Bill of Rights. We have 
our own Rights Charter like that of the Bill of Rights in our 
Constitution of 1940. And for that reason I ask Representative 
Starling to reflect on this, that all those rights found in the 
1940 Constitution have been abrogated in a de facto manner. And 
that's what we want, we want to have the same rights you have. 
And please take a look at the conditions on the ground before 
you start giving additional concessions.
    I want to show you something beautiful. The first thing 
that free Cuban people did when they got their independence was 
to have a referendum of what statue they would place in Havana. 
The Cubans voted for our Apostle Jose Marti, and while they 
waited for the building of the statue of Jose Marti, they 
inaugurated another statue remembering America; and that is the 
Statue of Liberty in the Central Park of Cuba, which is the 
most famous park in Cuba. That's what the United States 
represents to Cuba, freedom.
    Mr. Smith. Dr. Biscet, we're out of time for 14 votes that 
have just occurred on the House floor. I want to thank you, and 
thank all of you for your testimony. I wish this could go 
longer, but it is on zero, and I will miss an important vote on 
Iran. So I want to thank you.
    I have some additional questions on trafficking. Yesterday, 
the administration gave an upgrade again for the second year in 
a row to Cuba. I wrote that law on trafficking. I think it was 
a horrific decision politically motivated, and my hope is that 
they will revisit it even before next year because it was a 
mistake to give a passing grade to a country where sex and 
labor trafficking flourishes.
    The hearing is adjourned, and again I thank you. I do have 
to run.
    [Whereupon, at 5:24 p.m., the subcommittee was adjourned.]

                                   

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
